                           U.S. Department of Agriculture

                              Office of Inspector General
                               Financial & IT Operations




                Audit Report

Fiscal Year 2007 – Office of the Chief Financial
        Officer/National Finance Center
           General Controls Review




                                 Report No. 11401-26-FM
                                        September 2007
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250


September 27, 2007


REPLY TO
ATTN OF:       11401-26-FM

TO:            Charles R. Christopherson, Jr.
               Chief Financial Officer
               Office of the Chief Financial Officer

THROUGH: Kathleen A. Donaldson
         Audit Liaison Officer
         Office of the Chief Financial Officer

FROM:          Robert W. Young             /s/
               Assistant Inspector General
                for Audit

SUBJECT:       Fiscal Year 2007 – Office of the Chief Financial Officer/National Finance Center
               General Controls Review


This report presents the results of our review of internal controls at the Office of the Chief
Financial Officer/National Finance Center (OCFO/NFC) for fiscal year 2007. The audit was
conducted in accordance with Government Auditing Standards issued by the Comptroller
General of the United States and American Institute of Certified Public Accountants Professional
Standards AU Sections 316, 319, and 324, as amended by applicable Statements on Auditing
Standards (SAS), which are commonly referred to as a SAS 70 audit. While OCFO/NFC has
continued to improve its internal controls, the report contains a qualified opinion because certain
control policies and procedures, as described in the report, had not consistently operated
effectively from July 1, 2006, through June 30, 2007. As of August 30, 2007, OCFO/NFC had
corrected or was in the process of correcting the exceptions we identified.

The report describes weaknesses in OCFO/NFC internal control policies and procedures that
may be relevant to the internal control structure of OCFO/NFC customer agencies. However, the
accuracy and reliability of the data processed by OCFO/NFC and the resultant reports ultimately
rests with the customer agency and any accompanying compensating controls implemented by
the agency. The projections of any conclusions based on our audit findings to future periods are
subject to the risk that changes may alter the validity of such conclusions. This report is intended
solely for the management of OCFO/NFC, its customer agencies, and their auditors.

We appreciate the courtesies and cooperation extended to us during this review.
Executive Summary
Fiscal Year 2007 – Office of the Chief Financial Officer/National Finance Center General
Controls Review (Audit Report No. 11401-26-FM)

Results in Brief      This report presents the results of our review of internal controls at the U.S.
                      Department of Agriculture’s Office of the Chief Financial Officer/National
                      Finance Center (OCFO/NFC) for fiscal year 2007. While OCFO/NFC had
                      continued to improve its internal controls, this report contains a qualified
                      opinion because OCFO/NFC controls had not operated effectively to ensure
                      that certain access control, awareness and training, audit and accountability,
                      configuration management, contingency planning, and personnel security
                      objectives were consistently achieved from July 1, 2006, through June 30,
                      2007. As of August 30, 2007, OCFO/NFC had corrected or was in the
                      process of correcting the exceptions identified. The results of our tests and
                      corrective actions taken by OCFO/NFC are described in exhibit B.

                      Our objectives were to perform procedures necessary to express opinions
                      about whether (1) OCFO/NFC’s description of controls in exhibit A presents
                      fairly, in all material respects, the aspects of OCFO/NFC controls that may
                      be relevant to a customer agency’s internal control as it relates to an audit of
                      financial statements; (2) the controls included and/or referenced were placed
                      in operation and suitably designed to achieve the associated control
                      objectives, if those controls were complied with satisfactorily, and customer
                      agencies applied the controls specified in exhibit A; and (3) the controls we
                      tested were operating with sufficient effectiveness to provide reasonable, but
                      not absolute, assurance that the associated control objectives were achieved
                      during the period from July 1, 2006, through June 30, 2007.

                      Our audit disclosed that OCFO/NFC’s description of controls presented
                      fairly, in all material respects, the relevant aspects of OCFO/NFC controls.
                      Also, in our opinion, the controls included and/or referenced in the
                      description, as updated, were suitably designed to provide reasonable
                      assurance that associated control objectives would be achieved if the
                      described policies and procedures were complied with satisfactorily and
                      customer agencies applied the controls specified in the OCFO/NFC
                      description of controls.

Recommendations
In Brief              OCFO/NFC corrected or was in the process of correcting the exceptions we
                      identified. Consequently, we are not making additional recommendations.




USDA/OIG-A/11401-26-FM                                                                         Page i
Abbreviations Used in This Report


C&A                 certification and accreditation
COOP                Continuity of Operations Plan
DRP                 Disaster Recovery Plan
GESD                Government Employees Services Division
GSS                 general support system
HRMS                Human Resources Management Staff
ID                  identification
ISSO                Information System Security Office
ITSD                Information Technology Services Division
NFC                 National Finance Center
NIST                National Institute of Standards and Technology
OCFO                Office of the Chief Financial Officer
PMSO                Position Management System
PSD                 Position Sensitivity Designation
SETS                Security Entry and Tracking System
SRM                 security requirements matrix
SSP                 system security plans
ST&E                security test and evaluation
USDA                United States Department of Agriculture




USDA/OIG-A/11401-26-FM                                               Page ii
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report .......................................................................................................ii

Report of the Office of Inspector General ............................................................................................ 1

Exhibit A – Office of the Chief Financial Officer/National Finance Center Description of
            Controls .............................................................................................................................. 3
Exhibit B – Office of Inspector General - Review of Selected Controls .......................................... 20




USDA/OIG-A/11401-26-FM                                                                                                                    Page iii
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250




Report of the Office of Inspector General
TO:    Charles R. Christopherson, Jr.
       Chief Financial Officer
       Office of the Chief Financial Officer

We have examined the control objectives and techniques identified or referenced in exhibit A for the
U.S. Department of Agriculture’s Office of the Chief Financial Officer/National Finance Center
(OCFO/NFC). Our examination included procedures to obtain reasonable assurance about whether (1)
the accompanying description presents fairly, in all material respects, the aspects of OCFO/NFC
controls that may be relevant to a customer agency’s internal control as it relates to the audit of
financial statements; (2) the controls included or referenced in the description had been placed in
operation as of June 30, 2007; and (3) such controls were suitably designed to achieve the associated
control objectives, if those controls were complied with satisfactorily and customer agencies applied
the controls specified in the OCFO/NFC description of controls. The control objectives were specified
by the National Institute of Standards and Technology.

Our audit was conducted in accordance with Government Auditing Standards issued by the
Comptroller General of the United States and standards issued by the American Institute of Certified
Public Accountants and included those procedures we considered necessary to obtain a reasonable
basis for rendering our opinion.

OCFO/NFC continued to improve its internal controls. However, certain access control, awareness
and training, audit and accountability, configuration management, contingency planning, and personnel
security objectives, as described in exhibit B, were not consistently achieved from July 1, 2006,
through June 30, 2007. As of August 30, 2007, OCFO/NFC had corrected or was in the process of
correcting the exceptions we identified.

In our opinion, OCFO/NFC’s description of controls in exhibit A presents fairly, in all material
respects, the relevant aspects of OCFO/NFC controls that had been placed in operation as of June 30,
2007. Also, in our opinion, the controls included and/or referenced in exhibit A, as updated, were
suitably designed to provide reasonable assurance that the related control objectives would be achieved
if the described controls were complied with satisfactorily and customer agencies applied the controls
specified in the OCFO/NFC description of controls.

In addition, we performed tests to obtain evidence regarding the effectiveness of OCFO/NFC policies
and procedures in meeting the controls included and/or referenced in exhibit A. The specific controls
and the nature, timing, extent, and results of our tests are identified in exhibit B. This information has


USDA/OIG-A/11401-26-FM                                                                             Page 1
been provided to customer agencies and their auditors to be taken into consideration, along with
information about the internal control at customer agencies, when making assessments of control risk
for customer agencies. In our opinion, except for the matters referred to above, the controls we tested
were operating with sufficient effectiveness to provide reasonable, but not absolute, assurance that the
associated control objectives were achieved during the period from July 1, 2006, through June 30,
2007.

The relative effectiveness and significance of specific controls at OCFO/NFC and their effect on
assessments of control risk at customer agencies are dependent on their interaction with the controls
and other factors present at individual customer agencies. We did not evaluate the effectiveness of
controls at individual customer agencies.

The description of controls at OCFO/NFC is as of June 30, 2007, and information about tests of the
operating effectiveness of specific controls covers the period from July 1, 2006, through June 30, 2007.
Any projection of such information to the future is subject to the risk that, because of change, the
description may no longer portray the controls in existence. The potential effectiveness of specific
controls at OCFO/NFC is subject to inherent limitations and, accordingly, errors or fraud may occur
and not be detected. Furthermore, the projections of any conclusions, based on our findings, to future
periods are subject to the risk that changes may alter the validity of such conclusions. Finally, the
accuracy and reliability of data processed by OCFO/NFC and the resultant reports ultimately rests with
the customer agency and any compensating controls implemented by such agency.

This report is intended solely for the management of OCFO/NFC, its customer agencies, and their
auditors.


/s/

Robert W. Young
Assistant Inspector General
 for Audit

August 30, 2007




USDA/OIG-A/11401-26-FM                                                                           Page 2
Exhibit A          – Office of the Chief Financial Officer/National Finance Center
Description of Controls
                                                                  Exhibit A – Page 1 of 17




USDA/OIG-A/11401-26-FM                                                           Page 3
Pages 4 through 19 are not being publicly released due to
    the sensitive security information they contain.
Exhibit B – Office of Inspector General - Review of Selected Controls
                                                                                    Exhibit B – Page 1 of 16

This exhibit describes the results of our tests of operating effectiveness for the Office of the Chief
Financial Officer/National Finance Center (OCFO/NFC) controls specified and/or referenced in exhibit
A. It is intended to provide customer agencies with information about OCFO/NFC control structure
policies and procedures that may affect the processing of customer agency transactions and the
operating effectiveness of the policies and procedures we tested. This report, when combined with an
understanding and assessment of the internal control structure policies and procedures at customer
agencies, is intended to assist customer agency auditors in (1) planning the audit of customer agency
financial statements, and (2) in assessing control risk for assertions in customer agency financial
statements that may be affected by OCFO/NFC control structure policies and procedures.

Our review was conducted through inquiry of key OCFO/NFC personnel, observation of activities,
examination of relevant documentation and procedures, and other tests of controls. We also followed
up on known control weaknesses identified in prior Office of Inspector General audits. We performed
such tests as we considered necessary to evaluate whether operating and control procedures established
by OCFO/NFC and the extent of compliance with them were sufficient to provide reasonable, but not
absolute, assurance that the specified control objectives were achieved. Our testing was not intended
to apply to any procedures not included in this exhibit or to procedures that may be in effect at
customer agencies.

The following table presents the control objectives specified by the National Institute of Standards and
Technology (NIST) in Federal Information Processing Standards Publication 200, Minimum Security
Requirements for Federal Information and Information Systems, issued March 2006, related control
activities established by OCFO/NFC, a description of our tests to determine if OCFO/NFC controls
were operating with sufficient effectiveness to achieve the specified control objectives, and the results
of those tests.




USDA/OIG-A/11401-26-FM                                                                            Page 20
Exhibit B – Office of Inspector General - Review of Selected Controls
                                                                                                           Exhibit B – Page 2 of 16
     CONTROL                           CONTROL
                                                                      TESTS PERFORMED                       CONCLUSION
     OBJECTIVE                        ACTIVITIES
1. Access Control          For OCFO/NFC employees, the               We randomly selected 30 of       OCFO/NFC controls were
                           network security policy states that       the 4,690 mainframe user         operating effectively to provide
  Organizations must       individuals will be provided the least    identifications (ID) created     reasonable assurance that
  limit information        amount of access (within a defined        from October 1, 2006,            access granted to user IDs
  system access to         role) necessary to perform his/her job    through May 1, 2007, for         created during fiscal year 2007
  authorized users,        and that access will be granted in        review to determine if the       was limited to that authorized,
  processes acting on      accordance with OCFO/NFC                  accounts had been                inactive user IDs were
  behalf of authorized     management directives regarding data      appropriately authorized and     disabled, mainframe security
  users, or devices        security access and internal controls     the access granted had been      administrator activity was
  (including other         for access to data and software. These    restricted to that authorized    documented and reviewed,
  information systems)     management directives reiterate that      by a security officer.           unsuccessful log in attempts
  and to the types of      OCFO/NFC employees will be                                                 were limited, and warning
  transactions and         authorized access only to the             We randomly selected 30 of       banners were displayed.
  functions that           resources needed to perform his/her       the 165 Government               However, OCFO/NFC controls
  authorized users are     jobs and require separation of            Employees Services Division      had not operated effectively to
  permitted to exercise.   functions to guard against personnel      (GESD) and Human                 consistently ensure that access
                           having the opportunity to commit          Resources Management Staff       roles provided the least amount
                           and/or conceal intentional or             (HRMS) access roles defined      of access necessary to perform
                           unintentional alteration, or destroy      as of June 18, 2007, for         job functions or that modems
                           data or software. The data security       review to determine if access    were properly protected before
                           access policy also refers to the          had been authorized and          being placed in operation.
                           OCFO/NFC role based security              appropriately restricted to
                           access policy for users that have been    prevent users from having all    For access roles, we found that
                           implemented into role-based security.     of the necessary authority or    3 of the 30 roles we reviewed
                           Another OCFO/NFC management               information access to            provided update access to the
                           directive requires access to highly       perform fraudulent activity      Position Management System
                           controlled resources, such as             without collusion.               (PMSO) even though only read
                           production data, special system                                            access had been authorized on
                           software, special system and database     We reviewed access reports       the role SRM. This access also
                           utilities, etc., to be limited to staff   that identified users with the   unintentionally caused the
                           members with an ongoing need.             ability to update production     access provided to the 92
                                                                     application configuration        GESD employees assigned
                           The OCFO/NFC role based security          management libraries as of       these roles to violate separation
                           access policy assigns responsibilities    May 2007.                        of duties principles because the
                           and establishes procedures for                                             roles were authorized to
                           requesting and maintaining role-          We reviewed access profiles      process transactions in the
                           based access. Desk procedures             that provided access to          Entry, Processing, Inquiry and
                           referred to by the role-based security    sensitive system libraries and   Corrections System and either
                           directive specify procedures for          access reports that identified   the Special Payroll Processing
                           adding and modifying access roles         staff members with access to     System, the System for Time
                           based on the OCFO/NFC security            sensitive programs.              and Attendance, and/or the
                           access form (NFC-1106) and a                                               Time & Attendance Online
                           security requirements matrix (SRM)        We randomly selected 15 of       Suspense Correction and
                           that is completed by the role owner       the 544 agency security          Document System. OCFO/NFC
                           and approved by the appropriate           officers as of May 1, 2007,      removed this unauthorized
                           resource owners. The OCFO/NFC             and reviewed access reports      access on August 29, 2007.
                           security access form is also used to      that identified the
                           add or remove users from access           administrative authorities       We also determined that one
                           roles and delete access roles that are    assigned to agency security      GESD and four Information
                           no longer needed. In addition, the        officers.                        Technology Services Division
                           role-based security access procedures                                      (ITSD) access roles included
                           contain requirements for reviewing                                         access to certain sensitive
                           all users assigned to each role                                            programs that were not needed
                           annually and all resources assigned to                                     to perform their job functions.
                           each role every three years.                                               OCFO/NFC subsequently
                                                                                                      removed this access.


USDA/OIG-A/11401-26-FM                                                                                                     Page 21
Exhibit B – Office of Inspector General - Review of Selected Controls
                                                                                                  Exhibit B – Page 3 of 16
     CONTROL                    CONTROL
                                                              TESTS PERFORMED                      CONCLUSION
     OBJECTIVE                 ACTIVITIES
1. Access Control   For customer agency employees, the       We reviewed the logic for       We also determined that one
   (continued)      customer agency is responsible for       the OCFO/NFC program that       ITSD role was permitted all
                    designating personnel who are            disables inactive IDs and       access to application
                    authorized to request user additions,    tested the logic using a        configuration management load
                    deletions, and security level changes.   listing of user IDs as of May   and copy member libraries
                    OCFO/NFC then grants authority to        1, 2007.                        even though this level of access
                    access computer resources to                                             was not needed to perform the
                    individual users at the request of the   We interviewed OCFO/NFC         job functions. This unnecessary
                    customer agency security officer.        personnel, reviewed desk        access was removed.
                    Customer agency security officers are    procedures, and obtained
                    responsible for requesting access to     examples of reports used to     OCFO/NFC officials told us
                    applications in a manner that employs    monitor administrative          that they are refining
                    accepted separation of duty practices    actions processed by security   procedures for creating and
                    within their agency and ensuring the     officers and others in the      maintaining roles and training
                    level of access assigned to a user       mainframe environment.          new security developers/
                    remains appropriate over time.                                           administrators. OCFO/NFC is
                                                             We reviewed mainframe and       also verifying that SRMs are
                    The OCFO/NFC network security            Windows system                  documented and appropriately
                    policy also addresses suspending         documentation to determine      authorized, application access
                    inactive user IDs, documenting and       if user IDs were locked after   is consistent with the SRM, and
                    reviewing security administrator         three unsuccessful sign-on      other resources are appropriate
                    activity, limiting unsuccessful log in   attempts.                       for the organization.
                    attempts, displaying warning banners,
                    and controlling remote access.           We logged on to the             We also determined that the 15
                                                             OCFO/NFC mainframe              agency security officers we
                                                             (directly and remotely) and     reviewed were granted an
                                                             web-based applications          unnecessary administrative
                                                             available from OCFO/NFC’s       authority that could have
                                                             public web site to determine    allowed agency security
                                                             if a warning banner was         officers to assign user schema
                                                             displayed.                      had they had additional access
                                                                                             permissions. OCFO/NFC
                                                             We obtained a listing of dial   removed this access.
                                                             up connections at the interim
                                                             computing facility and          For remote access, we found
                                                             attempted to connect to these   that 3 of the 17 modems at the
                                                             modems using a Windows          interim computing facility
                                                             communication program           allowed connections without
                                                             (HyperTerminal).                password protection. While
                                                                                             these connections were
                                                                                             allowed, additional passwords
                                                                                             would have been required to
                                                                                             access OCFO/NFC
                                                                                             applications. In August 2007,
                                                                                             we verified that one of these
                                                                                             modems was disconnected and
                                                                                             the other two were password-
                                                                                             protected. OCFO/NFC told us
                                                                                             they were in the process of
                                                                                             updating procedures to ensure
                                                                                             that security is addressed
                                                                                             before modem lines are
                                                                                             assigned.




USDA/OIG-A/11401-26-FM                                                                                           Page 22
Exhibit B – Office of Inspector General - Review of Selected Controls
                                                                                                               Exhibit B – Page 4 of 16
     CONTROL                               CONTROL
                                                                           TESTS PERFORMED                      CONCLUSION
     OBJECTIVE                            ACTIVITIES
2. Awareness and Training     The OCFO/NFC Information Security           We randomly selected 15 of      OCFO/NFC procedures
                              Program includes security awareness         the 55 employees hired          provided reasonable assurance
  Organizations must (i)      training to notify users of information     between October 1, 2006,        that the Center provided
  ensure that managers        systems that support the operations and     and March 26, 2007, and         quarterly security briefings that
  and users of                assets of the agency of the information     requested the new employee      addressed OCFO/NFC-specific
  organizational              security risks associated with their        security briefing for these     security responsibilities.
  information systems are     activities and their responsibilities in    employees to determine if it    However, OCFO/NFC controls
  made aware of the           complying with agency policies and          had been completed before       had not operated effectively to
  security risks associated   procedures designed to reduce these         access was granted to           ensure that employees
  with their activities and   risks. In this regard, the OCFO/NFC         OCFO/NFC computer               consistently completed the
  of the applicable laws,     management directive for security           systems.                        OCFO/NFC New Employee
  Executive Orders,           awareness training requires new                                             Security Briefing before they
  directives, policies,       employees and contractor personnel to       We reviewed security            were given access to
  standards, instructions,    attend the OCFO/NFC New Employee            awareness training records      OCFO/NFC computer systems
  regulations, or             Security Briefing before they are given     and associated                  or all contractors completed
  procedures related to the   access to OCFO/NFC computer                 documentation to determine      annual awareness training.
  security of                 systems. OCFO/NFC updated its               if 44 OCFO/NFC contractors
  organizational              procedures during our review to             who were issued badges in       For the new employee security
  information systems;        require divisional security coordinators    December 2007 had               briefing, OCFO/NFC did not
  and (ii) ensure that        to maintain the signed briefing and         completed annual basic          provide a signed security
  organizational personnel    attach it to the security access form       security awareness training.    awareness briefing for 7 of the
  are adequately trained to   (NFC-1106) when requesting access.                                          15 new employees we
  carry out their assigned    For customer agency employees, the          We interviewed OCFO/NFC         reviewed. Consequently, we
  information security-       user organization is responsible for        staff members and reviewed      could not determine whether
  related duties and          ensuring users sign an agreement to         the quarterly security          access was granted before the
  responsibilities.           abide by rules of behavior for              awareness briefings provided    briefing for these employees.
                              accessing OCFO/NFC systems prior to         in December 2006 and            We also determined that user
                              requesting access.                          March 2007. We also             IDs for two of the remaining
                                                                          reviewed sign in sheets used    eight employees were created
                              NFC also requires employees and             to document attendance at       before the employee received
                              contractors to complete annual security     quarterly security briefings.   the security awareness briefing.
                              awareness training that addresses basic                                     During our review, OCFO/NFC
                              U.S. Department of Agriculture                                              updated its procedures to
                              (USDA) computer security concepts                                           require divisional security
                              and provides quarterly security                                             coordinators to maintain the
                              briefings that address OCFO/NFC-                                            signed briefing and attach it
                              specific security responsibilities.                                         when requesting access.

                              For the basic security awareness                                            For annual security awareness
                              training, division directors/staff chiefs                                   training, 33 of the 44
                              are responsible for ensuring that all                                       contractors we reviewed had
                              employees and contractor personnel in                                       taken the annual training as of
                              his/her organization complete annual                                        June 30, 2007. OCFO/NFC
                              security awareness training. The                                            officials told us that the
                              OCFO/NFC training coordinator                                               remaining 11 contractors had
                              provides reports to division                                                not completed the training
                              coordinators to help them monitor                                           because they had not required
                              completion rates for their                                                  contractors to sign up while
                              organizations. USDA also provides                                           OCFO/NFC was updating the
                              OCFO/NFC Cyber Security staff with                                          security awareness training
                              a monthly IT security scorecard that                                        database (AgLearn).
                              summarizes completion rates.                                                OCFO/NFC officials also told
                                                                                                          us that they are working with
                              The OCFO/NFC management                                                     AgLearn technical support to
                              directive for individual development                                        enroll these contractors so they
                              plans specifies a process for ensuring                                      can complete the required
                              that employees receive the training                                         training.
                              required to perform their job functions.


USDA/OIG-A/11401-26-FM                                                                                                         Page 23
Exhibit B – Office of Inspector General - Review of Selected Controls
                                                                                                              Exhibit B – Page 5 of 16
      CONTROL                              CONTROL
                                                                            TESTS PERFORMED                     CONCLUSION
      OBJECTIVE                           ACTIVITIES
3. Audit and                  The OCFO/NFC network security                We interviewed NFC            OCFO/NFC controls were
   Accountability             policy requires the following security       personnel. We also reviewed   operating effectively to provide
                              events to be logged: all logons and log      system documentation,         reasonable assurance that
  Organizations must (i)      offs, all failed logons, all lockouts and    configuration information,    mainframe audit records were
  create, protect, and        unlocks, all server-based administrator      and access reports.           created and protected and the
  retain information          activities, all unsuccessful attempts to                                   actions of information system
  system audit records to     access information resources, and all                                      users could be traced.
  the extent needed to        modifications to highly sensitive data                                     However, OCFO/NFC controls
  enable the monitoring,      and resources. The network security                                        had not ensured that unusual
  analysis, investigation,    policy also requires server-based                                          and/or inappropriate
  and reporting of            administrator activities and                                               modifications to certain
  unlawful, unauthorized,     modifications to highly sensitive data                                     sensitive system resources and
  or inappropriate            and resources to be reviewed to                                            application configuration
  information system          identify and investigate unusual and/or                                    management libraries would be
  activity; and (ii) ensure   inappropriate modifications. In this                                       identified and investigated.
  that the actions of         regard, OCFO/NFC had established an
  individual information      oversight committee to make policy                                         For sensitive system resources,
  system users can be         decisions related to OCFO/NFC’s                                            OCFO/NFC had instituted a
  uniquely traced to those    logging, auditing, and monitoring                                          tracking system to ensure that
  users so they can be        program to ensure efficiency and                                           reports were reviewed,
  held accountable for        compliance with Departmental and                                           expanded its definition of
  their actions.              Federal regulations. In addition, the                                      critical security resources, and
                              OCFO/NFC mainframe security plan                                           established a requirement to
                              states that audit trails are configured to                                 produce and distribute reports
                              support personal accountability by                                         that document access activity
                              providing a trace of user actions and                                      associated with sensitive
                              includes the following minimum                                             system resources that could
                              requirements for audit trail records:                                      impact security regularly.
                              date and time of event; source; type of                                    However, these processes had
                              event; success or failure of event; and                                    not been fully implemented.
                              name of program/file introduced,
                              accessed, or deleted.                                                      As of June 30, 2007,
                                                                                                         OCFO/NFC was regularly
                                                                                                         reviewing monthly usage
                                                                                                         reports for two programs
                                                                                                         identified as critical system
                                                                                                         resources in the mainframe
                                                                                                         environment. In August 2007,
                                                                                                         OCFO/NFC incorporated
                                                                                                         reports that identified updates
                                                                                                         to certain critical mainframe
                                                                                                         data sets and usage of eight
                                                                                                         additional sensitive programs
                                                                                                         into its tracking system.
                                                                                                         Monitoring reports for 21
                                                                                                         programs added as critical
                                                                                                         mainframe security resources
                                                                                                         could not be produced because
                                                                                                         these programs were not
                                                                                                         protected by the mainframe
                                                                                                         access control software.
                                                                                                         OCFO/NFC officials told us
                                                                                                         that they plan to refine the list
                                                                                                         of sensitive programs; protect
                                                                                                         these programs; and begin
                                                                                                         distributing requested reports.




USDA/OIG-A/11401-26-FM                                                                                                         Page 24
Exhibit B – Office of Inspector General - Review of Selected Controls
                                                                                                                Exhibit B – Page 6 of 16
    CONTROL                               CONTROL
                                                                           TESTS PERFORMED                       CONCLUSION
    OBJECTIVE                            ACTIVITIES
3. Audit and                                                                                               However, this effort will not
   Accountability                                                                                          begin until after the data
   (continued)                                                                                             center relocation to the
                                                                                                           primary computing facility.

                                                                                                           For application configuration
                                                                                                           management libraries,
                                                                                                           OCFO/NFC had implemented
                                                                                                           automated processes to
                                                                                                           identify unusual and/or
                                                                                                           suspicious access activity, but
                                                                                                           certain production libraries
                                                                                                           were not included in the
                                                                                                           monitoring report as of June
                                                                                                           30, 2007. In August 2007,
                                                                                                           OCFO/NFC expanded the
                                                                                                           monitoring report to include
                                                                                                           the remaining production
                                                                                                           configuration libraries.

4. Certification,           OCFO/NFC certification and                    We interviewed OCFO/NFC          OCFO/NFC controls were
   Accreditation, and       accreditation (C&A) procedures require        personnel and reviewed           operating effectively to
   Security Assessments     an independent security test and              OCFO/NFC assessments,            provide reasonable assurance
                            evaluation (ST&E) to determine the            along with system detail and     that the associated NIST
  Organizations must        effectiveness of the security controls. The   task reports, documented in      controls would be achieved.
  (i) periodically assess   designated approving authority decides        the Automated System
  the security controls     whether or not to authorize the system for    Security Evaluation and
  in organizational         processing based on the ST&E results          Remediation Tracking
  information systems       and residual risk. This accreditation         system.
  to determine if the       decision, along with the supporting
  controls are effective    documentation and rationale, are included     We also reviewed
  in their application;     in the final accreditation package.           OCFO/NFC general support
  (ii) develop and          OCFO/NFC C&A procedures require               system test and evaluation
  implement plans of        systems to be re-accredited every 3 years     reports, the tracking matrix
  action designed to        or when significant changes occur.            that documented weaknesses
  correct deficiencies      OCFO/NFC C&A procedures also                  identified and their
  and reduce or             require agreements that specify security      resolution, and the
  eliminate                 responsibilities for inter-agency or inter-   certification and
  vulnerabilities in        department information system                 accreditation statements for
  organizational            connections.                                  the OCFO/NFC general
  information systems;                                                    support systems at its interim
  (iii) authorize the       In addition, the OCFO/NFC Information         computing facility.
  operation of              Security Program requires (1) testing and
  organizational            evaluating the effectiveness of               In addition, we evaluated
  information systems       information security policies, procedures,    interconnection security
  and any associated        and practices at least annually; and (2)      agreements for 3 of the 15
  information system        planning, implementing, evaluating, and       organizations with direct
  connections; and (iv)     documenting remedial action to address        connections to the
  monitor information       identified deficiencies. OCFO/NFC             OCFO/NFC interim
  system security           division directors/staff chiefs are           computing facility.
  controls on an            responsible for performing the security
  ongoing basis to          control testing and preparing plans of
  ensure the continued      action and milestones to remediate
  effectiveness of the      deficiencies. In addition, OCFO/NFC
  controls.                 Cyber Security staff is responsible for
                            ensuring that security assessments are
                            conducted and remedial action plans for
                            security deficiencies are implemented.


USDA/OIG-A/11401-26-FM                                                                                                          Page 25
Exhibit B – Office of Inspector General - Review of Selected Controls
                                                                                                            Exhibit B – Page 7 of 16
    CONTROL                              CONTROL
                                                                          TESTS PERFORMED                    CONCLUSION
    OBJECTIVE                           ACTIVITIES
5. Configuration           The OCFO/NFC general support system           For GSSs, we interviewed      OCFO/NFC controls were
   Management (CM)         (GSS) configuration and change                NFC personnel and             operating effectively to
                           management directive specifies policy,        reviewed system               provide reasonable assurance
  Organizations must       responsibilities, and procedures for          documentation.                that changes to its
  (i) establish and        managing the configuration of and                                           applications were authorized,
  maintain baseline        controlling both emergency and routine        For applications, we          documented, and controlled.
  configurations and       changes to the OCFO/NFC GSS, which            interviewed NFC personnel     However, OCFO/NFC had
  inventories of           includes all hardware, firmware, system       and reviewed system           not yet performed planned
  organizational           software, and supporting components           documentation. We also        annual reviews to ensure that
  information systems      (cables, connectors, etc.) that make up the   randomly selected 15 of the   its component baseline was
  (including hardware,     entire data center environment. This          217 mandated application      accurate and that all
  software, firmware,      directive establishes requirements for:       change projects and 10 of     unnecessary functions, ports,
  and documentation)                                                     the 26 emergency changes      protocols, services, etc., had
  throughout the           • Maintaining both an online                  that were implemented         been identified and
  respective system          configuration management repository         between October 1, 2006,      eliminated.
  development life           and an online change management             and April 30, 2007, for
  cycles; and (ii)           system;                                     GESD mainframe                In February 2007,
  establish and enforce    • documenting, testing, approving,            applications and reviewed     OCFO/NFC had updated its
  security configuration     validating, and specifying the              associated documentation      policies and procedures to
  settings for               outcome of each change request;             for each of the selected      establish requirements for
  information              • ensuring that the configuration             changes.                      maintaining an online
  technology products        repository is updated when changes                                        configuration management
  employed in                are completed; and                                                        repository of GSS
  organizational           • performing an annual review to                                            components and conducting
  information systems.       ensure that the information included                                      an annual configuration
                             in the repository is accurate.                                            review to ensure that the GSS
                                                                                                       configuration repository is
                           NFC management directives also require                                      accurate and that all
                           all services not needed for applications                                    unnecessary functions, ports,
                           and basic administration of the server to                                   protocols, services, etc., are
                           be turned off and an annual configuration                                   identified and eliminated.
                           review of all OCFO/NFC GSS                                                  While OCFO/NFC had also
                           components to ensure that all                                               established the Data Center
                           unnecessary functions, ports, protocols,                                    Organizer as the official
                           services, etc., are identified and                                          configuration management
                           eliminated.                                                                 repository in February 2007,
                                                                                                       the Center had not conducted
                           For applications, OCFO/NFC uses library                                     a review to determine if the
                           management software to maintain                                             information was accurate or to
                           application baselines throughout the                                        ensure that only required
                           system development lifecycle. The                                           functions, ports, protocols,
                           OCFO/NFC management directive for                                           services, etc. were available
                           scheduled software maintenance requires                                     on its GSS components.
                           all changes to be documented on a                                           OCFO/NFC officials told us
                           program change request form, tested                                         that they had purchased a tool
                           according to development organization                                       that would allow them to
                           guidelines, and approved prior to                                           automate this review and
                           implementation. Once all approvals have                                     planned to implement the tool
                           been received, either the library                                           after the data center relocated
                           management software or OCFO/NFC                                             to its primary computing
                           staff members independent of the                                            facility.
                           application developers implement the
                           proposed change.




USDA/OIG-A/11401-26-FM                                                                                                      Page 26
Exhibit B – Office of Inspector General - Review of Selected Controls
                                                                                                             Exhibit B – Page 8 of 16
    CONTROL                                CONTROL
                                                                            TESTS PERFORMED                   CONCLUSION
    OBJECTIVE                             ACTIVITIES
6. Contingency               The OCFO/NFC Information Security             We interviewed               OCFO/NFC controls were
   Planning                  Program includes plans and procedures to      OCFO/NFC personnel. We       operating effectively to provide
                             ensure continuity of operations for           also reviewed the            reasonable assurance that the
  Organizations must         information systems that support the          OCFO/NFC COOP,               OCFO/NFC COOP and the
  establish, maintain,       operations and assets of the agency.          OCFO/NFC DRP,                associated plan for recovering
  and effectively            OCFO/NFC Cyber Security staff are             documentation associated     computer operations (DRP) had
  implement plans for        responsible for ensuring that a Continuity    with OCFO/NFC DRP            been updated to reflect the
  emergency response,        of Operations/Disaster Recovery               desktop reviews, and the     current operating environment
  backup operations,         Program is implemented, maintained, and       results of a review of       and information system
  and post-disaster          tested according to NIST guidance. In         information system           backups were created and
  recovery for               addition, division directors/branch chiefs    backups at the NFC offsite   stored at an off-site facility.
  organizational             are responsible for providing plans and       storage facility.            However, as of June 30, 2007,
  information systems        procedures in coordination with                                            OCFO/NFC had not tested its
  to ensure the              OCFO/NFC central recovery plan and                                         updated recovery procedures to
  availability of critical   developing, testing, and maintaining                                       ensure that information system
  information resources      continuity of operations plans for their                                   could be recovered from its
  and continuity of          business units. In this regard, the                                        backups and reconstituted to a
  operations in              OCFO/NFC Continuity of Operations                                          known secure state after a
  emergency situations.      Plan (COOP) relies on the OCFO/NFC                                         disruption or failure.
                             Disaster Recovery Plan (DRP) for
                             recovery of the computer processing                                        In fiscal year 2006, we reported
                             capability if an event impacts the interim                                 that OCFO/NFC had not yet
                             computing facility and Business Unit                                       updated its procedures for
                             Plans that are documented separately to                                    recovering computer operations
                             restore the business aspects of critical                                   (DRP) to reflect changes that
                             business unit functions.                                                   occurred with the move to the
                                                                                                        interim computing facility or
                             The OCFO/NFC COOP also states that                                         tested recovery of operations at
                             OCFO/NFC conducts semi-annual tests                                        its new recovery operations
                             (drills) at its recovery operations center                                 center. While OCFO/NFC had
                             and alternate work sites to train and                                      updated its DRP based on
                             exercise its business resumption                                           desktop reviews, the center had
                             capabilities as well as its recovery                                       not tested recovery of computer
                             capability. In addition, the OCFO/NFC                                      operations based on the
                             COOP states that the Center’s continuity                                   updated procedures as of June
                             of operations plans should be updated to                                   30, 2007. OCFO/NFC
                             reflect lessons learned during these tests.                                performed a disaster recovery
                                                                                                        test where it used backup
                             In addition, OCFO/NFC management                                           information from its interim
                             directives require critical data on servers                                computing facility to recover
                             to be backed up regularly. System                                          its systems at the primary
                             administrators are responsible for                                         computing facility during the
                             developing documented procedures for                                       week of July 29, 2007.
                             backup and recovery of data on the                                         OCFO/NFC officials told us
                             servers for which they are responsible.                                    that they plan to update the
                             Critical application backups and                                           recovery plan and procedures
                             operating system backups are tested at                                     based on these results and
                             least annually as a part of the                                            perform an additional test in
                             division/staff’s disaster recovery drill to                                November when the backup
                             ensure that such backups support                                           computing facility is
                             network/workstation recovery and restore                                   established in New Orleans.
                             procedures.




USDA/OIG-A/11401-26-FM                                                                                                      Page 27
Exhibit B – Office of Inspector General - Review of Selected Controls
                                                                                                         Exhibit B – Page 9 of 16
     CONTROL                            CONTROL
                                                                       TESTS PERFORMED                     CONCLUSION
     OBJECTIVE                         ACTIVITIES
7. Identification and      For OCFO/NFC employees, the                We interviewed                 OCFO/NFC controls were
   Authentication          OCFO/NFC network security policy           OCFO/NFC personnel. We         operating effectively to
                           states that user IDs and processes will    also reviewed a listing of     provide reasonable assurance
  Organizations must       be identified to an individual, have a     user IDs and mainframe         that the associated NIST
  identify information     password, and not be shared. This          password settings. In          controls would be achieved.
  system users,            policy also states that if a process       addition, we accessed the
  processes acting on      cannot be specifically tied to an          NFC mainframe and web-
  behalf of users, or      individual, then the password lifetime     based applications available
  devices and              will be issued for the period of the       from the NFC web site to
  authenticate (or         session. In addition, the network          determine if NFC systems
  verify) the identities   security policy requires initial           obscured feedback of
  of those users,          passwords to be communicated in            authenticator information.
  processes, or devices,   confidence and set to expire and force a
  as a prerequisite to     new password selection on the user’s
  allowing access to       first sign-on to the system. Additional
  organizational           desk procedures provide guidance on
  information systems.     resetting passwords.

                           The OCFO/NFC network security
                           policy states that passwords should:

                           • Be at least six characters;
                           • consist of alphabetic and numeric
                             characters;
                           • not be stored in clear text on any
                             medium;
                           • not be the same as any of the five
                             previous passwords;
                           • not be identical to the user’s ID;
                           • be set to expire at least every 90
                             days;
                           • be controlled via a restricted
                             password list when possible; and
                           • be protected from eavesdropping
                             during network transmissions.

                           The network security policy also
                           requires default passwords to be
                           changed when the hardware or
                           application is implemented. In addition,
                           this policy states that whenever access
                           is to be gained by remote methods,
                           passwords will be supplemented with
                           personal identification numbers, tokens,
                           smart cards, or some other trusted
                           authentication device or procedure.

                           For customer agency employees, the
                           customer agency is responsible for
                           designating personnel (agency security
                           officers) who are authorized to request
                           user additions, deletions, and security
                           level changes. Agency security officers
                           are also responsible for ensuring the
                           level of access assigned to a user
                           remains appropriate over time.



USDA/OIG-A/11401-26-FM                                                                                                  Page 28
Exhibit B – Office of Inspector General - Review of Selected Controls
                                                                                                         Exhibit B – Page 10 of 16
    CONTROL                              CONTROL
                                                                         TESTS PERFORMED                    CONCLUSION
    OBJECTIVE                           ACTIVITIES
8. Incident Response        The OCFO/NFC Information Security            We interviewed NFC           OCFO/NFC controls were
                            Program includes procedures for              personnel and reviewed       operating effectively to
   Organizations must       detecting, reporting, and responding to      the NFC Computer             provide reasonable assurance
   (i) establish an         security incidents. In this regard, the      Incident Handling Guide,     that the associated NIST
   operational incident     OCFO/NFC Computer Incident                   along with sign in sheets    controls would be achieved.
   handling capability      Handling Guide establishes policy,           for incident response
   for organizational       responsibilities, and procedures for         training that was provided
   information systems      addressing computer security                 to ITSD Operations
   that includes            incidents. These procedures address          Security Center staff
   adequate preparation,    detecting potential incidents;               members.
   detection, analysis,     documenting and analyzing the
   containment,             potential incidents to determine if an
   recovery, and user       incident has occurred and, if so, the
   response activities;     appropriate steps regarding
   and (ii) track,          containment, eradication and
   document, and report     recovering from the incident; and
   incidents to             documenting, tracking, and promptly
   appropriate              reporting information security
   organizational           incidents to the appropriate authorities.
   officials and/or
   authorities.
9. Planning                The OCFO/NFC Information System              We interviewed NFC            OCFO/NFC controls were
                           Security Program requires division           personnel and reviewed the    operating effectively to provide
  Organizations must       directors/staff chiefs to prepare and        final system security plans   reasonable assurance that the
  develop, document,       maintain system security plans (SSP)         for the NFC GSS’              associated NIST controls
  periodically update,     that provide adequate information            associated with               would be achieved.
  and implement            security for system resources under their    payroll/personnel services,
  security plans for       responsibility. In this regard,              along with the Security
  organizational           OCFO/NFC certification and                   Access Manual provided to
  information systems      accreditation procedures require the         agency security officers.
  that describe the        existing SSP to be reviewed to ensure
  security controls in     that it describes the most current system
  place or planned for     configuration, specifies all security
  the information          controls included in the system, and was
  systems and the rules    prepared according to NIST guidance.
  of behavior for          These procedures also require SSP
  individuals accessing    updates when changes that impact
  the information          security are implemented. In addition,
  systems.                 USDA requires agency heads to submit
                           system security plans and attest to their
                           accuracy and completeness annually.

                           In addition, the OCFO/NFC
                           management directive for security
                           awareness training requires new
                           employees and contractor personnel to
                           attend the OCFO/NFC New Employee
                           Security Briefing, which includes rules
                           of behavior, before they are given
                           access to OCFO/NFC computer
                           systems. For user organization
                           employees, the user organization is
                           responsible for ensuring users sign an
                           agreement to abide by rules of behavior
                           for accessing OCFO/NFC systems prior
                           to requesting their access.




USDA/OIG-A/11401-26-FM                                                                                                     Page 29
Exhibit B – Office of Inspector General - Review of Selected Controls
                                                                                                           Exhibit B – Page 11 of 16
    CONTROL                              CONTROL
                                                                       TESTS PERFORMED                       CONCLUSION
    OBJECTIVE                           ACTIVITIES
10. Personnel Security      The OCFO/NFC personnel security           We interviewed                 OCFO/NFC controls were
                            and suitability program directive,        OCFO/NFC personnel and         operating effectively to provide
    Organizations must      which applies to all OCFO                 reviewed Security Entry        reasonable assurance that
    (i) ensure that         employees, contractors, and               and Tracking System            organizational information
    individuals             consultants located at OCFO/NFC,          (SETS) information as of       systems were protected when
    occupying               requires all positions to be assigned a   May 29, 2007, along with       transfers occurred and to ensure
    positions of            Position Sensitivity Designation          the results of OCFO/NFC’s      that appropriate disciplinary
    responsibility          (PSD) level in accordance with its        2006 PSD review.               actions would be taken if
    within                  potential to have an adverse effect on                                   employees fail to comply with
    organizations           the USDA mission and national             We randomly selected 15        information system user
    (including third-       security and each person to undergo       of the 107 employee            responsibilities. While
    party service           the appropriate type of personnel         transfers that occurred from   OCFO/NFC had improved its
    providers) are          security investigation based on the       October 1, 2006, through       control processes, we found that
    trustworthy and         position sensitivity or risk level        April 6, 2007, for review.     controls were not operating with
    meet established        designation. This directive also          For each of the selected       sufficient effectiveness to ensure
    security criteria for   requires each PSD to be reviewed          transfers, we reviewed the     that employee PSDs were
    those positions; (ii)   when job responsibilities change or       transfer (NFC-1366) form       accurately reflected in SETS,
    ensure that             every 2 years.                            and the access permissions     suitable personnel security
    organizational                                                    associated with the            investigations were requested, or
    information and         In addition, the OCFO/NFC                 transferred employee’s user    separation forms were
    information             management directive for completing       ID.                            consistently completed before
    systems are             its separation (NFC-1267) and                                            employees separated.
    protected during        transfer (NFC-1366) forms provides a      We randomly selected 15
    and after personnel     means to ensure that organizational       of the 47 employee             For employee PSDs, even
    actions such as         information systems are protected         separations that occurred      though OCFO/NFC had
    terminations and        when terminations and transfers           from October 1, 2006,          instituted a quarterly PSD
    transfers; and (iii)    occur.                                    through March 16, 2007.        review to help ensure that PSDs
    employ formal                                                     For each of these              remain accurate, we determined
    sanctions for           Furthermore, the OCFO/NFC                 separations, we reviewed       that SETS did not contain
    personnel failing to    management directive specifying           the separation (NFC-1267)      accurate PSDs for more than 20
    comply with             information system user                   form, a listing of             percent of the employees (7 of
    organizational          responsibilities requires OCFO/NFC        mainframe user IDs, and        33) whose SETS PSD did not
    security policies       managers to consult with the HRMS         Information System             match the results of the NFC
    and procedures.         regarding the appropriate disciplinary    Security Office (ISSO)         PSD review. This occurred
                            action to take against employees for      documentation to determine     because one division had not
                            not complying with the                    when access was disabled.      performed its PSD review while
                            responsibilities specified.                                              its security officer was
                                                                                                     temporarily reassigned. While
                                                                                                     the employees’ background
                                                                                                     investigations were suitable
                                                                                                     based on the correct PSD,
                                                                                                     OCFO/NFC had identified these
                                                                                                     employees as needing higher
                                                                                                     level background investigations.
                                                                                                     To prevent this type of problem
                                                                                                     from recurring, OCFO/NFC
                                                                                                     officials told us that they plan to
                                                                                                     begin requiring the security
                                                                                                     officers to report the results of
                                                                                                     their quarterly review even if no
                                                                                                     changes are required.




USDA/OIG-A/11401-26-FM                                                                                                        Page 30
Exhibit B – Office of Inspector General - Review of Selected Controls
                                                               Exhibit B – Page 12 of 16
    CONTROL               CONTROL
                                          TESTS PERFORMED         CONCLUSION
    OBJECTIVE            ACTIVITIES
10. Personnel Security                                      For personnel security
    (continued)                                             investigations, we determined
                                                            that the appropriate level of
                                                            background investigation had
                                                            not been requested for about 6
                                                            percent of OCFO/NFC
                                                            employees (55 of 847) in SETS
                                                            as of May 29, 2007. While
                                                            these employees had undergone
                                                            the minimum required
                                                            investigation for Federal
                                                            employees, OCFO/NFC
                                                            procedures required a more
                                                            stringent investigation based on
                                                            the employee’s PSD.
                                                            OCFO/NFC officials told us
                                                            that they had performed a
                                                            manual review of SETS
                                                            information in March and April
                                                            2007 to identify employees that
                                                            did not have appropriate
                                                            background investigations for
                                                            their current PSD and were in
                                                            the process of scheduling the
                                                            needed investigations. This
                                                            manual review occurred
                                                            because SETS does not provide
                                                            a reporting mechanism that
                                                            allows users to easily identify
                                                            employees with unsuitable
                                                            investigations based on their
                                                            current PSD. OCFO/NFC
                                                            officials confirmed with a
                                                            USDA Personnel and
                                                            Document Security Division
                                                            official that the new version of
                                                            SETS, which is scheduled for
                                                            implementation on or about
                                                            November 2007, will include a
                                                            report that should help
                                                            organizations ensure that
                                                            investigations are appropriate.
                                                            In addition, OCFO/NFC
                                                            officials told us that they plan
                                                            to begin requiring an OPM
                                                            worksheet to be submitted for
                                                            PSD changes. These forms
                                                            will be assigned a control
                                                            number and forwarded to the
                                                            appropriate organizations to
                                                            ensure that the PSD change is
                                                            made in PMSO and additional
                                                            background investigation
                                                            requirements are identified in a
                                                            timely manner.




USDA/OIG-A/11401-26-FM                                                          Page 31
Exhibit B – Office of Inspector General - Review of Selected Controls
                                                               Exhibit B – Page 13 of 16
    CONTROL               CONTROL
                                          TESTS PERFORMED         CONCLUSION
    OBJECTIVE            ACTIVITIES
10. Personnel Security                                      As of August 24, 2007,
    (continued)                                             OCFO/NFC had made
                                                            corrections for about half (26
                                                            of 55) of the unsuitable
                                                            investigations we identified by
                                                            either submitting requests to
                                                            update background
                                                            investigations or reclassifying
                                                            PSDs to more accurately reflect
                                                            the employee’s duties.
                                                            OCFO/NFC officials told us
                                                            that they planned to provide
                                                            additional education regarding
                                                            PSDs and continue submitting
                                                            requests to update background
                                                            investigations for employees
                                                            based on their correct PSDs.

                                                            For separations, the
                                                            OCFO/NFC separation form
                                                            (NFC-1267) was not processed
                                                            on or before the employee’s
                                                            separation date for 5 of the 15
                                                            separated employees that we
                                                            reviewed. In each of these
                                                            cases, the employee’s
                                                            supervisor had not ensured that
                                                            the form was completed and
                                                            delivered to HRMS by the
                                                            separation date. ISSO
                                                            personnel processed these
                                                            forms from 11 to 57 days after
                                                            the actual separation date,
                                                            which increases the risk of
                                                            improper activity after
                                                            separation. However, we
                                                            verified that this control
                                                            weakness had not resulted in
                                                            improper mainframe activity.
                                                            We also noted that four of these
                                                            five instances occurred before
                                                            OCFO/NFC updated its
                                                            procedures in December to
                                                            require the employee’s
                                                            immediate supervisor to ensure
                                                            that the OCFO/NFC separation
                                                            form is completed and
                                                            delivered to HRMS no later
                                                            than close of business on the
                                                            effective date of the separation.




USDA/OIG-A/11401-26-FM                                                           Page 32
Exhibit B – Office of Inspector General - Review of Selected Controls
                                                                                                           Exhibit B – Page 14 of 16
    CONTROL                             CONTROL
                                                                         TESTS PERFORMED                      CONCLUSION
    OBJECTIVE                          ACTIVITIES
11. Risk Assessment       The OCFO/NFC Information System               We interviewed NFC              OCFO/NFC controls were
                          Security Program requires periodic            personnel and reviewed the      operating effectively to provide
    Organizations must    assessments of the risk and magnitude of      final C&A documentation,        reasonable assurance that the
    periodically assess   the harm that could result from the           including risk assessments,     associated NIST controls
    the risk to           unauthorized access, use, disclosure,         for the NFC GSS’ associated     would be achieved.
    organizational        disruption, modification, or destruction of   with payroll/personnel
    operations            information and information systems that      services.
    (including mission,   support its operations and assets, and
    functions, image,     tasks division directors/staff chiefs with    We also evaluated the NFC
    or reputation),       ensuring that these risk assessments are      vulnerability scanning
    organizational        prepared and maintained. In this regard,      process, including the
    assets, and           OCFO/NFC C&A procedures require the           cumulative vulnerability
    individuals,          risk assessment to contain a security         report as of June 21, 2007.
    resulting from the    categorization based on the FIPS 199          In addition, we reviewed 8 of
    operation of          guidance, to be reviewed to ensure that it    the 48 vulnerabilities that
    organizational        identifies all apparent threats and           had been classified as either
    information           vulnerabilities in the information            a false positive or an
    systems and the       technology system and is consistent with      acceptable risk.
    associated            the NIST guidance, and to be updated
    processing,           each time there is a change to the security
    storage, or           controls on the system that might affect
    transmission of       the residual risk to the system.
    organizational
    information.          In addition, OCFO/NFC currently
                          performs monthly scans to identify
                          network vulnerabilities. The OCFO/NFC
                          management directive for network
                          vulnerability self assessments requires
                          the identified vulnerabilities to be
                          analyzed and eliminated or documented if
                          the vulnerability is required for
                          production processes. While the
                          directive does not specify a timeframe for
                          resolution, it requires approved action
                          plans for vulnerabilities that are not
                          resolved or documented within 45 days.




USDA/OIG-A/11401-26-FM                                                                                                       Page 33
Exhibit B – Office of Inspector General - Review of Selected Controls
                                                                                                    Exhibit B – Page 15 of 16
    CONTROL                             CONTROL
                                                                         TESTS PERFORMED               CONCLUSION
    OBJECTIVE                          ACTIVITIES
12. System and             The OCFO/NFC network connects its            We interviewed NFC       OCFO/NFC controls were
    Communications         resources to the Internet, to the general    personnel and reviewed   operating effectively to provide
    Protection             USDA network, to other US Government         system documentation,    reasonable assurance that the
                           agencies, and to financial institutions.     including NFC firewall   associated NIST controls
    Organizations must     The OCFO/NFC firewall policy                 rules.                   would be achieved.
    (i) monitor,           establishes a requirement for a
    control, and protect   demilitarized zone between the Internet
    organizational         and OCFO/NFC’s internal network to
    communications         support applications that require publicly
    (i.e., information     accessible network servers. The
    transmitted or         demilitarized zone is protected by
    received by            firewalls on both sides. The OCFO/NFC
    organizational         firewall policy also requires all direct
    information            connections to the Internet or other
    systems) at the        networks to occur through an
    external boundaries    OCFO/NFC managed firewall that denies
    and key internal       all inbound and outbound protocols
    boundaries of the      unless specifically permitted and
    information            identifies the source and destination for
    systems; and (ii)      each protocol.
    employ
    architectural          NFC procedures for connecting laptop
    designs, software      computers and other devices to the
    development            OCFO/NFC network prohibit employees
    techniques, and        from connecting devices to the network
    systems                without approval. If approved,
    engineering            OCFO/NFC ensures that the device is
    principles that        appropriately protected before connecting
    promote effective      it to the network.
    information
    security within
    organizational
    information
    systems.




USDA/OIG-A/11401-26-FM                                                                                                Page 34
Exhibit B – Office of Inspector General - Review of Selected Controls
                                                                                                            Exhibit B – Page 16 of 16
    CONTROL                             CONTROL
    OBJECTIVE                          ACTIVITIES                      TESTS PERFORMED                       CONCLUSION
13. System and              NFC management directives and             We interviewed NFC              OCFO/NFC controls were
    Information             other guidance establish policy,          personnel and reviewed          operating effectively to provide
    Integrity               responsibilities, and procedures for      system configuration            reasonable assurance that the
                            reviewing advisory alerts and             information. We also            associated NIST controls would
    Organizations must      implementing network system               evaluated the NFC               be achieved.
    (i) identify, report,   security patches required for             vulnerability scanning
    and correct             OCFO/NFC systems, requiring the           process, including the
    information and         use of anti-virus software, and           cumulative vulnerability
    information system      prohibiting users from installing         report as of June 21, 2007.
    flaws in a timely       unauthorized software on their            In addition, we reviewed 8
    manner; (ii)            computers.                                of the 48 vulnerabilities
    provide protection                                                that had been classified as
    from malicious          The OCFO/NFC management                   either a false positive or an
    code at appropriate     directive for network vulnerability       acceptable risk.
    locations within        self assessments also requires
    organizational          vulnerability scans to be performed at
    information             least quarterly and states that
    systems; and (iii)      identified network vulnerabilities will
    monitor                 be analyzed and eliminated or
    information system      documented if the vulnerability is
    security alerts and     required for production processes.
    advisories and take     While the directive does not specify a
    appropriate actions     timeframe for resolution, it requires
    in response.            action plans to be documented and
                            approved for vulnerabilities that are
                            not resolved or documented within 45
                            days.

                            In addition, OCFO/NFC network
                            security policy states that the Center
                            will develop and administer an
                            intrusion detection program to reduce
                            the risk of unauthorized access or
                            hostile activity.




USDA/OIG-A/11401-26-FM                                                                                                       Page 35
